No. 19-688

IN THE

'upreme Court of tie Einitebi Otateo
WELLS FARGO & Co.
and WELLS FARGO BANK, N.A.,
Petitioners,
v.
CITY OF MIAMI,
Respondent.

On Petition for a Writ of Certiorari to the
United States Court of Appeals
for the Eleventh Circuit

REPLY BRIEF IN SUPPORT OF CERTIORARI

CERTIFICATE OF COMPLIANCE
As required by Supreme Court Rule 33.1(h), I certify that the document contains
2,936 words, excluding the parts of the document that are exempted by Supreme Court
Rule 33.1(d).
I declare under penalty of perjury that the foregoing is true and correct.

Executed on February 7, 2020.

e
Colin Case4iogan
Wilson-Epes Printing Co., Inc.

